<html>
<title> - NOMINATIONS</title>
<body><pre>[Senate Hearing 107-823]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-823
 
                              NOMINATIONS
=======================================================================



                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON


   NOMINATIONS OF PHILLIP HOGEN TO SERVE AS CHAIRMAN OF THE NATIONAL 
   INDIAN GAMING COMMISSION AND QUANAH CROSSLAND STAMPS TO SERVE AS 
        COMMISSIONER FOR THE ADMINISTRATION FOR NATIVE AMERICANS

                               __________

                           SEPTEMBER 25, 2002
                             WASHINGTON, DC












                           U.S. GOVERNMENT PRINTING OFFICE
84-285                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman
            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

KENT CONRAD, North Dakota            FRANK MURKOWSKI, Alaska
HARRY REID, Nevada                   JOHN McCAIN, Arizona,
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
PAUL WELLSTONE, Minnesota            CRAIG THOMAS, Wyoming
BYRON L. DORGAN, North Dakota        ORRIN G. HATCH, Utah
TIM JOHNSON, South Dakota            JAMES M. INHOFE, Oklahoma
MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel
         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)












                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Campbell. Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      vice chairman, Committee on Indian Affairs.................     5
    Hogen, Phillip, nominee for chairman of the National Indian 
      Gaming Commission..........................................     1
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, chairman, 
      Committee on Indian Affairs................................     1
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     5
    Thune, Hon. John R., U.S. Representative from South Dakota...    10
    Stamps, Quanah Crossland, nominee for commissioner, 
      Administration for Native Americans........................    10

                                Appendix

Prepared statements:
    Hogen, Phillip...............................................    17
    Johnson, Hon. Tim, U.S. Senator from South Dakota............    15
    Thune, Hon. John R., U.S. Representative from South Dakota 
      (with letter)..............................................    15
    Stamps, Quanah Crossland.....................................    21
    Warner, Hon. John W., U.S. Senator from Virginia.............    17
Additional material submitted for the record:
    Letters......................................................    23
















                              NOMINATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 25, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 10:08 
a.m. in room 485, Senate Russell Building, Hon. Daniel K. 
Inouye (chairman of the committee) presiding.
    Present: Senators Inouye, Campbell, Johnson, Reid, Akaka, 
and Dorgan.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The Committee on Indian Affairs meets this 
morning to consider the nominations of the President of the 
United States of Phillip Hogen to serve as the Chairman of the 
National Indian Gaming Commission and Quanah Crossland Stamps 
to serve as the Commissioner for the Administration for Native 
Americans.
    To present Mr. Hogen, may I recognize and call upon the 
distinguished member of this committee, Senator Tim Johnson.
    Senator Campbell. Senator Johnson is not here, Mr. 
Chairman, but with your approval, I do have a letter from 
Representative Thune for the record in support of the 
nomination.
    The Chairman. Without objection, so ordered.
    Senator Reid. I would ask that Senator Johnson's statement 
be made part of the record.
    The Chairman. Without objection, so ordered.
    [Prepared statement of Senator Johnson appears in 
appendix.]
    The Chairman. We have not had any objections to the 
nomination and the approval of the nomination of Phillip Hogen 
as Chairman of the Commission. Are there any questions, 
objections?
    Mr. Hogen, do you have a statement to present to us, sir?

    STATEMENT OF PHILLIP HOGEN, NOMINEE FOR CHAIRMAN OF THE 
               NATIONAL INDIAN GAMING COMMISSION

    Mr. Hogen. Good morning, Mr. Chairman, Mr. Vice Chairman, 
Senators. Yes, Mr. Chairman, I have a written statement that I 
would submit for the committee's record, and I would like to 
briefly cover some of the high points of that.
    I'm Phil Hogen. I'm an Oglala Sioux from the land of Red 
Cloud, the Pine Ridge Indian Reservation in South Dakota. I 
learned about Indian law shortly after I got out of law school 
when I had the opportunity to represent the Lower Brule and 
Crow Creek Sioux Tribes and quickly discovered that there are 
many legal, economic, and social challenges that face our over 
500 tribes.
    After I got my feet wet in the practice of Indian law out 
in Kennebec, SD, I joined another fellow from Kennebec, Jim 
Abdnor, who was elected to Congress in 1972 and came with him 
to serve on his staff here in Washington. We just got to town, 
so to speak, when the American Indian movement took over 
Wounded Knee out in our district. So we quickly were immersed 
in Indian affairs and Federal Indian policy issues. That was a 
very enlightening experience and I made relationships back then 
in the Justice Department and in the BIA and Department of the 
Interior that I maintain today.
    I went back to South Dakota after Congressman Abdnor's 
first term and became the local prosecutor out on the Pine 
Ridge Indian Reservation and in Jackson County, SD. Kadoka is 
the county seat, that's where I was born and raised. I 
prosecuted crimes of a wide variety while in that capacity. I 
became active in the States Attorneys Association, became 
President of the South Dakota States Attorneys Association, 
served on the board of directors of the National District 
Attorneys Association, and in 1980 when President Reagan was 
appointing U.S. attorneys, with then-Senator Jim Abdnor's help, 
I became the U.S. attorney for South Dakota.
    I had the privilege of serving in that capacity over 10 
years. That was a very interesting and rewarding job, but one 
of the frustrations of that position was the vast amount of 
violent crime that occurs in South Dakota's Indian 
reservations. I'm convinced that a root of that crime is the 
poverty that exists there and the social and economic 
conditions that follow. I served as the chairman of the 
Attorney General's Committee for Indian Affairs, and at the 
outset, in the early 1980's, we only had a handful of U.S. 
attorneys interested in that activity, because they were doing 
what I was doing, that is, prosecuting felonies in Indian 
country where we had Federal jurisdiction.
    As the 1980's wore on, however, Indian gaming started to 
spring up throughout Indian country and U.S. attorneys that 
didn't know they had Indians suddenly discovered them and 
became interested in our committee. They wanted to know what 
they could do about Indian gaming. We didn't have a real good 
answer to that. Shortly thereafter the Cabazon decision was 
decided, and then in 1988, of course, the Indian Gaming 
Regulatory Act was enacted and Indian gaming was off and 
running, so to speak.
    I participated in some of the early cases interpreting that 
act, trying to decide is keno a version of bingo or not, and it 
was decided that it was not. We had a case dealing with the 
grandfather clause for the card games. As the chairman of the 
Indian Affairs Subcommittee, I got kind of a national 
perspective on where Indian gaming was going. When I left the 
U.S. attorneys position in 1991, Secretary Lujan at the 
Department of the Interior asked me if I would organize and 
become the first director of the Office of American Indian 
Trust, which I was proud to do. We just got started doing that 
when there was a change in administration, and then in 1993 I 
went back to Rapid City, where I practiced Indian law and 
focused on Indian gaming.
    One of my big projects was Indian gaming that my tribe, the 
Oglala Sioux, got into. We had to draft the tribe's gaming 
ordinance, submit that back to the Chairman of the National 
Indian Gaming Commission, negotiate a tribal-State compact with 
the State of South Dakota, draft gaming regulations, negotiate 
a management contract, submit that to the NIGC, hire and train 
a tribal gaming commission and get that casino, the Prairie 
Winds Casino, open and running. So I kind of got to go through 
all the phases of getting the tribal gaming operation up and 
going.
    About that time, a candidate was needed to serve on the 
National Indian Gaming Commission, and in 1995, Secretary 
Babbitt asked if I would serve on the Commission. So I did 
that, joining the Commission in 1995, and I served a 3-year 
term. At the end of my 3-year term, I was the only commissioner 
there, so I was told I couldn't leave and I needed to stick 
around until Chairman Montie Deer came on board. Then I left in 
July 1999, when the other two commissioners came on board.
    That was a very dynamic period for Indian gaming and for 
the NIGC. I served with four different chairs of the 
Commission. I'm not sure that was good for the Commission, as 
there was kind of a musical chairs situation there for a while. 
But we did expand the Commission's activities. The industry had 
outgrown the Commission's ability to regulate it with the 
funding we had to begin with. We got funding changed so that we 
could assess a fee on class III gaming. We opened five field 
offices, we hired a professional audit staff and I think 
started to make some progress on being in places we needed to 
be and spending the amount of time we needed to spend to do 
what the Indian Gaming Regulatory Act mandated of the 
Commission.
    We also adopted the Minimum Internal Control Standards, and 
I think brought greater needed regularity to the way Indian 
gaming was conducted throughout the country. When I finished my 
stint in 1999 on the Commission, I went back to Rapid City, 
again practiced Indian law, affiliated with the Holland and 
Knight firm and their office here in Washington, and so was 
able to serve some of their national clients, primarily in the 
area of Indian gaming regulation, working with their client 
tribes who were in the gaming business, helping improve their 
tribal gaming regulatory codes and train their gaming 
regulatory staff.
    Last fall, Secretary Norton and Solicitor Bill Myers called 
and asked if I would serve as the Associate Solicitor for 
Indian Affairs. So in October of last year, I came back to 
Washington to assume that position, and that's what I'm doing 
now. That's been a very interesting, challenging opportunity, 
and I greatly enjoy the opportunity of working with Secretary 
Norton and Assistant Secretary McCaleb, and think they are 
doing fine work there. Part of what they do, of course, impacts 
on Indian gaming. They approve the tribal-State compacts and I 
have had the opportunity to advise in connection with the 
adoption or the approval and the rejection of proposed 
compacts. We also of course advise with respect to the taking 
of lands into trust.
    So throughout my career, I've had an opportunity to be in a 
number of places to see Indian gaming and the law that pertains 
to it develop, to see how that industry has assisted tribes. Of 
course, it has not assisted all of the tribes, and not all of 
the tribes equally. But it has been a very effective economic 
development tool where it's been put to good use. I would look 
forward to the opportunity to go back to the National Indian 
Gaming Commission. Most of the folks that are there were hired 
or were working there when I was there. I don't think there 
would be a real long learning curve to get up to speed, and I 
look forward to that opportunity, if this committee and the 
Senate see fit to approve my confirmation.
    I would be happy to respond to any questions that the 
committee might have.
    [Prepared statement of Mr. Hogen appears in appendix.]
    The Chairman. I thank you very much, Mr. Hogen.
    Mr. Hogen, previous commissioners of the NIGC have publicly 
stated that the Commission is exempt from the provisions of 
Executive Order 13175, the Executive order that requires all 
Federal agencies to consult with Indian nations. What is your 
position?
    Mr. Hogen. At the Department of the Interior, I am working 
with Secretary Norton in developing a departmental consultation 
policy. I have observed first-hand the consultation at work at 
the Bureau of Indian Affairs, particularly with the Tribal 
Trust Reform Task Force, and view that to be a very productive 
exercise.
    I have not focused on the scope of that order, and how it 
might impact legally on the National Indian Gaming Commission, 
so I can't give you an informed legal opinion. I can tell you 
that I know it's folly to try to impose rules on Indian nations 
without first seeking their view and at least in practice, if 
not legally required, I would go to the Commission I would 
attempt to follow that practice.
    The Chairman. You would not object to consulting with 
Indian nations?
    Mr. Hogen. No; I think that is very wise.
    The Chairman. We have been advised that the Commission's 
review of management contracts, or contract applications, 
typically takes 6 months to 1 year. Are you going to do 
something about that?
    Mr. Hogen. I certainly hope so. I told the story about 
representing my tribe as we went through the approval of the 
management contract, or submitting the management contract to 
NIGC for approval. In fact, before that exercise was over, they 
fired me. Matter of fact, they fired me at one of their 
meetings that was broadcast over the radio. So I've been fired 
over the radio. And the reason they fired me was because I 
couldn't get the NIGC's approval of that management contract. 
It languished there for what seemed to me like forever. It was 
signed in December 1994, and it was actually approved by NIGC 
in the exact form I drafted it the week I joined NIGC in 
December 1995. It took way too long to get that thing approved.
    It's a difficult responsibility. The NIGC has a very 
serious responsibility, that is, they must exercise the trust 
responsibility; they must make sure tribes aren't taken 
advantage of. Yet those deals, those contracts are fragile 
situations financially and politically. They have a short shelf 
life and Government's got to realize that you've got to move 
quickly to get those things reviewed and approved. So to the 
extent that I could speed that process, I will be very 
dedicated to accomplishing that.
    The Chairman. On the matter of interpreting the act, would 
you take an independent position or feel bound by the position 
taken by the Justice Department?
    Mr. Hogen. I think that commissioners are appointed to the 
NIGC to exercise their independent judgment. Certainly I'm 
aware that where possible, the Federal Government should speak 
with one voice, and having been a player both in the Justice 
Department and the Department of the Interior, I try to achieve 
that. But I think the National Indian Gaming Commission is the 
expert in the Federal Government in the area of gaming and 
Indian gaming in particular. And I don't think I would be 
constrained if I felt strongly that the Justice Department were 
not on the right track that NIGC and its point of view should 
be heard.
    The Chairman. Thank you very much, Mr. Hogen.
    Before I call upon the Vice Chairman, may I recognize 
Senator Johnson, if he would wish to say something.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman. I regret that 
because of accidents on all the bridges coming into the city 
today that it took me 1\1/2\ hours to cover 15 miles to get to 
the Hill. I regret that I was not here in a timely fashion to 
introduce Phil Hogen. I've known Phil for many years. I think 
that his nomination by the President is an excellent choice. I 
know that he will do an extraordinary job as chairman of the 
National Indian Gaming Commission. I congratulate him on his 
nomination.
    I have a more complete introduction that I'll submit for 
the committee record. Thank you, Mr. Chairman.
    The Chairman. I thank you very much.
    Mr. Vice Chairman.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
      COLORADO, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Campbell. Thank you, Mr. Chairman. I certainly 
concur with Senator Johnson. I've known Mr. Hogen for a long 
time in his different jobs and he's always done a very, very 
fine job. I think President Bush has made an outstanding 
choice, too. Certainly the Indian Gaming Commission is becoming 
more complicated, as he knows. We hear about it all the time on 
this committee, as you probably know, Phil. There have been 
huge successes made by the tribes that have gamed. I think 
they've done a wonderful job in providing jobs for their people 
and money for their seniors and scholarships for their kids, 
things of that nature. And I'm very supportive of it.
    But clearly there's been a little bit of a backlash in some 
areas, too, as you know, from communities that think that 
somehow it's increased crime or something of that nature. We 
had somebody testifying the other day to that effect, and I 
don't agree with that, but that's what we hear at this 
committee.
    So I know it's becoming much more difficult. And I know 
being a Lakota yourself that you're very concerned about the 
welfare of Indian people. And I certainly don't need a legal 
opinion about whether the NIGC has to consult with tribes or 
not. Your word is good enough for me that you will consult with 
them. Because they have it tough enough already. So I would 
appreciate that.
    Let me ask you maybe just a couple of questions. In the 14 
years since we enacted the Indian Gaming Regulatory Act, in 
your opinion has the Commission been able to keep up with the 
changing face of gaming? We've increased the budget, I don't 
know, I think four or five-fold, with an increase in the number 
of people that are in the regulatory framework, but the number 
of casinos are going up. I'm not altogether sure that they've 
had the manpower, the resources and so on to do the job they 
need to do.
    Mr. Hogen. In my experience, the growth of the industry has 
been greater than the expansion of the Commission's ability to 
provide the oversight they are required to do. For example, 
when we set up the five field offices we opened when I was on 
the Commission, we put an office in Sacramento, CA. It turns 
out much of the development recently is in southern California, 
and it's just not possible to adequately cover all of that 
territory from that office.
    I don't know all of the details about some of the budget 
challenges there. I do know from casual conversations that I've 
had with friends and Chairman Deer that because they're short 
on dollars, they can't do the travel that's required to be all 
the places they should be. This not only of course adversely 
affects the regulation and oversight that they should do, but 
it's really hard on the morale of the folks that are supposed 
to be doing the job when they're sitting in there in their 
office wringing their hands as opposed to being out consulting 
with tribal gaming commissions, looking at records and so 
forth. Not only do they feel bad, but the institution gets a 
bad image itself.
    So I'm hopeful that some way they will soon be up to the 
task of being all those places they need to be all of the time.
    Senator Campbell. As the regulatory framework began to 
broaden, we did get some feedback in committee here from at 
least some tribes that felt that the Commission was acting more 
in a punitive manner rather than a regulatory manner. I 
remember on several occasions when we dealt with the increase 
of budget. I was reluctant to support that because a lot of 
tribes were absolutely opposed to it, which leads me to my next 
question. The Administration has an idea about pegging the rate 
charged to Indian casinos to the gross revenues of the total 
industry. First, do you think that's a viable concept? I have a 
hunch the tribes would probably be opposed to that, but I'd 
like to know your view on it.
    Mr. Hogen. I think that it's a viable concept. There's 
going to be always tension between the regulators and the 
regulated community. Nobody likes to watch the highway 
patrolman in their rear view mirror, I think, but they're 
probably glad that they're out there generally. I think that 
the industry would be well served or better served if there is 
adequate, not too much, but adequate Federal oversight. And I 
think that if they can't get taxpayers dollars to do that, then 
the industry themselves can afford to do that.
    The sliding scale, I think, would be a better way to handle 
this, rather than having to come back to Congress hat in hand 
every so often to say, it's again outgrown our capacity to do 
the job. So I have not studied it to the extent I might have 
when I was serving on the Commission but, from the perspective 
I've had, I think that's a positive approach.
    Senator Campbell. I wish Senator Reid was still here, who 
knows so much more about non-Indian gaming than I do. But as I 
understand it, gaming regulation on what I might call the 
outside, Las Vegas, Atlantic City, and so on, is paid for 
through licensing fees. Would this concept of a floating fee 
rate, would that be viewed as a tax or fee for services?
    Mr. Hogen. Well, I don't think you can exclusively say it's 
a fee for services. And the reason I say that is, there are 
small, new operations just getting started for which there's a 
great need for NIGC services. I don't think it would be fair to 
charge those folks that are just getting started more than they 
could afford and jeopardize the success of their operation. You 
have these big mega-operations that have the finest local 
regulatory mechanism in the world, and they probably don't need 
quite as much service as those smaller starting operations.
    So I don't think there can be a direct correlation between 
service and fee. But there needs to be some correlation there. 
So I think everybody needs to pay their fair share, but it 
wouldn't always equate to how much service a particular 
facility received.
    Senator Campbell. Yes; it's going to be probably a pretty 
delicate issue.
    Mr. Hogen. I expect so.
    Senator Campbell. The other casinos, they pay income tax, 
and that income tax offsets the cost of the Federal regulators 
that are needed, even though the State gaming commission does 
most of it. So it will be--anyway, I hope that you would move 
along carefully on that.
    In the past 14 years, you were here in 1980, as Senator 
Inouye was, and I was, and many of us were, the original aims, 
I remember, I was still on the House side, but the original 
aims, and the reason I really supported it in 1988 was that it 
was going to really try to promote economic development, and 
number two, to protect Indian gaming from any corrupt 
influence. Do you think we've largely achieved those two?
    Mr. Hogen. Yes; I think those objectives have been 
accomplished. It certainly hasn't solved all of the economic 
problems on all of the reservations. On my reservation, which 
unfortunately is the poorest county in the State, when we 
opened the casino, we created 100 new jobs, desperately needed 
jobs, that we didn't have before. In my opinion, that was the 
single most positive accomplishment.
    Unfortunately, unemployment went up after we did that, 
because more people came back to the reservation to get those 
jobs than we had jobs. And of course, we're not next to San 
Diego or Minneapolis, so we don't have a huge market. We've got 
a little operation there that makes some money. And so it 
hasn't solved all of our problems.
    In terms of the organized crime thing, first of all, I 
think the unique nature of tribal government, doing business on 
the reservation, doesn't lend itself for the Mafia to come in 
and be warmly accepted. Those folks know who they're going to 
be doing business with. And they've taken regulation of gaming 
seriously. Fortunately, Indian gaming didn't have to reinvent 
the wheel. Nevada learned the hard way, they kind of made the 
mistakes along the way, and Indian gaming was able to build on 
that model, looking to New Jersey and elsewhere. So we started 
way ahead of the game.
    And I think with those tools and with those circumstances, 
organized crime has not made an in-road. But we've always got 
to be vigilant. We can't let down our guard in that regard.
    Senator Campbell. I agree. I remember when we originally 
talked about it, I think I made the statement years ago, 
there's probably more crime in five city blocks in New York 
than there is all of Indian country, if we wanted to compare 
where crimes are being committed in this country.
    As you know, the book of regulations provided by Indian 
tribes for class II gaming and by tribes and States for class 
III gaming pursuant to the compacts, I think that's what we 
probably intended. There have been some changes, though, since 
we passed the act, there are some new machines coming out that 
there is some disagreement about whether they're two or three. 
Would you like to comment on that? How do we handle that, some 
of the new forms of gaming?
    Mr. Hogen. Technology is difficult to keep up with in a 
static piece of legislation. Definitions were written in 1988 
and there have been great advances in computer science and 
gaming science and so forth since that time. The concept, I 
think, still can be identified. We were talking about bingo 
games and games like bingo, games where you're not playing 
against the house. That's class II. Class III is everything 
else, slot machines, blackjack, and so forth. So I think as 
long as we keep that principle in mind, we can find the 
appropriate line.
    But some of those machines are going to present a great 
challenge to find out just, do they fall over the line or not. 
So I think there has to be constant study made of what that 
definition is in terms of the NIGC regulations, how it's 
applied and courts are probably going to have to provide some 
of the ultimate answers just as to what that means.
    Senator Campbell. Thank you. Maybe one last question that's 
a little bit akin to it. We just did a hearing last week and 
heard from some communities that were very upset that when 
tribes expand gaming in their towns or near their towns, 
because they are federally recognized, that they don't have to 
comply with local land use planning or building codes or so on, 
and that creates a real impact for the community. How do you 
view that?
    Mr. Hogen. Well, I guess I should preface that by saying, 
the NIGC has a role to play, but it always needs to remind 
itself that it's a narrow role. We shouldn't comment too much 
on a lot of industry-wide questions, rather focus on 
regulation. But with respect to where the casino or the bingo 
operation fits into the community, as the ordinance is 
considered by NIGC, it needs to make sure they touch all the 
bases there and don't ignore things that they should be 
respectful of or step beyond what they can do. The tribes will 
be well served if they sit down with those communities to begin 
with and say, let's work this out, rather than just trying to 
stick something there that doesn't fit.
    But tribal sovereignty is tribal sovereignty. And that 
needs to be borne in mind, and hopefully with that in mind, 
facilities and the tribes can work with the surrounding 
communities and avoid those confrontations. But again, there 
probably will be some court challenges as those things are 
finalized.
    Senator Campbell. Good. Thank you. I see you've come down 
very firmly in the middle, and that's what most of us do. 
[Laughter.]
    Thank you. I have no further questions, Mr. Chairman.
    The Chairman. Thank you very much. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. I think we have a 
couple of votes coming up, and let me be very brief. I want to 
again welcome Phil to the committee.
    Just a couple quick questions. In addition to the 
Washington office, I know that NIGC currently has five 
additional field offices located across the country. Is that 
adequate? Is that an infrastructure that's adequate for your 
needs, or do you have any plans to expand the presence of NIGC 
in Indian country with the use of the field offices?
    Mr. Hogen. I don't have any plans yet, but I might make 
some soon if I do get to the National Indian Gaming Commission. 
As I mentioned in response to an earlier question, southern 
California is probably an area that is under-served right now. 
To my chagrin, our area, the Great Plains, is kind of the 
stepchild of the system right now. They are served to the 
extent they can be by the St. Paul office with some help from 
the Portland office from time to time, and there's just too 
many miles to sit behind the windshield to get out there to go 
to those facilities to adequately do that from St. Paul or 
Portland.
    So I think if the resources are there, Montana and North 
and South Dakota need some attention and perhaps need an office 
out in that area. So if the resources are there, those would be 
positive steps to take, I think.
    Senator Johnson. So you would regard southern California 
and the Great Plains as probably the two priorities that come 
most immediately to mind in terms of expansion of services?
    Mr. Hogen. From what I know right now. Once I get to the 
Commission, I'm sure I will learn more. But that's my 
perception.
    Senator Johnson. Let me just ask you quickly whether you 
have any idea as to when the two associate commissioners are 
going to come on board at the Commission.
    Mr. Hogen. I've spoken with both of those commissioners and 
am delighted with the backgrounds that they will bring to the 
Commission. I think shortly after the 30-day period following 
the publication in the Federal Register, they will be coming on 
board. So I think that will be in the very near future, but I 
can't give you a precise date.
    Senator Johnson. Very good.
    Mr. Chairman, that's all that I have. I know that we're 
short on time, but thank you for this opportunity. And again, 
I'll submit a more complete statement relative to Mr. Hogen for 
the Committee record.
    The Chairman. Thank you very much.
    May I invite Congressman John Thune of South Dakota, if he 
wishes to testify.
    Mr. Thune. Thank you, Mr. Chairman. I have a statement I'll 
submit for the record.
    The Chairman. Without objection, so ordered.
    [Prepared statement of Mr. Thune appears in appendix.]

STATEMENT OF HON. JOHN R. THUNE, U.S. REPRESENTATIVE FROM SOUTH 
                             DAKOTA

    Mr. Thune. I appreciate that very much. We also have a vote 
going on in the House right now.
    But let me just simply say that I'm honored to be here 
today and speak on behalf of Phil Hogen. He is someone who is 
extremely knowledgeable, not only of the law, but also of the 
legislative and political process, has a full understanding of 
Indian gaming. Someone I've known for a long time, as his 
family. He comes from the same part of South Dakota where I'm 
from. A couple of his brothers were contemporaries of mine in 
high school.
    Not only are you getting someone who is totally qualified 
for this job, extremely capable, but also someone who has 
enormous character and will perform admirably. So I'm honored 
to be here this morning to speak on his behalf and encourage 
you to confirm him soon. Thank you, sir.
    The Chairman. I thank you very much, Congressman.
    On October 1, this committee will gather to consider the 
executive calendar. And Mr. Hogen, I assure you that your name 
will be on the top of the list.
    Mr. Hogen. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    On July 10 of this year, the President of the United States 
nominated Quanah Stamps to be Commissioner of ANA. Ms. Stamps 
is an enrolled member of the Cherokee Nation of Oklahoma. She 
served as an assistant administrator for Native American 
affairs with the Small Business Administration and acted as the 
senior adviser to the administrator on business and economic 
development for the Native American community. Ms. Stamps has a 
masters degree in international commerce and public policy from 
George Mason University and holds certificates from the 
National Development Council. We are most pleased to have you, 
Ms. Stamps. Do you have a statement?

STATEMENT OF QUANAH CROSSLAND STAMPS, NOMINEE FOR COMMISSIONER, 
              ADMINISTRATION FOR NATIVE AMERICANS

    Ms. Stamps. Yes; I do, Mr. Chairman. And there has been one 
submitted earlier. I'm just going to summarize my statement to 
you.
    The Chairman. Your full statement will be made part of the 
record.
    Ms. Stamps. Good morning, Mr. Chairman and members of the 
committee. My name is Quanah Crossland Stamps, and I am an 
enrolled member of the Cherokee Nation in Tahlequah, OK. It is 
an honor to appear before you today as President George W. 
Bush's nominee to be the commissioner of the Administration for 
Native Americans.
    Joining me today is my husband of 17 years, Col. Robert 
Stamps. I would also like to acknowledge my daughter Sequoyah, 
my mother, Nora Carrington, and my father, John Crossland, who 
could not be here with me today.
    The Chairman. Are they here today?
    Ms. Stamps. My husband.
    The Chairman. This is your day. Colonel, why don't you 
stand up so we can see you.
    Ms. Stamps. Again, I'd like to acknowledge my mother, Nora 
Carrington, and my father, John Crossland, who could not be 
with me today, but they are watching the live broadcast on the 
internet.
    Mr. Chairman and members of the committee, as you know, ANA 
is located within the Department of Health and Human Services, 
within the Administration for Children and Families. If I am 
confirmed for the statutory position of commissioner, I will 
have the privilege to work with Secretary Tommy Thompson and 
Assistant Secretary for Children and Families, Dr. Wade Horn. 
We will work together on social and economic development issues 
affecting and enhancing the lives of Native Americans, Alaska 
Natives, American Indians, Native Hawaiians, Samoans, and other 
indigenous populations throughout the Pacific Basin.
    If confirmed, I will bring to this position a wide range of 
experiences that have prepared me for this important job. In 
1990, I received my bachelor's degree from George Mason 
University and in 1991, I accepted a position with the Bureau 
of Indian Affairs [BIA] in the Division of Contracting and 
Grants Administration. During my tenure with the BIA, I worked 
on procurement policy issues governed by the Buy Indian and 
Indian Self-Determination Act and on administrative processes 
that regulated Federal contracts and contract grant awards to 
Native American owned businesses and tribal organizations. I 
drafted and provided written and oral comments on pending 
legislation and I negotiated the regulations to implement the 
Indian Incentive and Mentor-Protege programs.
    In 1994, I accepted the position of Assistant Administrator 
for Native American Affairs with the U.S. Small Business 
Administration. In this capacity, I was the senior policy 
adviser to the to the administrator on business and economic 
development activities and the delivery of SBA programs that 
served Alaska, Hawaii, and American Indian people in the lower 
48 States.
    In fiscal years 1995 and 1996, I developed and implemented 
a 9-State pilot project to establish 21 rural reservation-based 
tribal business information centers. This was a joint Federal 
initiative with the BIA. It involved the negotiation of several 
public-private partnership agreements in an effort to ensure 
these communities had access to technical, educational and 
financial assistance services necessary to establish small 
businesses and create employment opportunities. Today, due to 
the hard work of dedicated people and the support of 
communities, tribes, tribal colleges and several Federal 
agencies, there are 18 TBIC's operating, which have helped to 
establish and expand hundreds of small businesses in areas of 
the country with chronic high unemployment.
    From 1998 to 2000, I completed my graduate studies in 
international commerce and public policy from George Mason 
University. My studies focused on transitional economies, U.S. 
trade agreements, the process of country risk analysis and 
international business transactions. In 1998, I also 
established a consulting practice to provide business technical 
assistance to foreign companies interested in accessing the 
U.S. marketplace. I accepted contracts to research the business 
strategies of U.S. aviation and aerospace companies, and to 
provide business technical assistance to tribally owned firms, 
as well as to review development proposals on behalf of the 
U.S. Department of Treasury, Community Development Financial 
Institutions.
    I have worked in the Russian Far East and the Republic of 
Macedonia on projects to develop small businesses and community 
development organizations. Each of these projects involved 
countries whose economies were in severe transition and had 
very little private sector development or employment 
opportunities. I worked with organizations to build their 
business capacities, market their communities and sell their 
products in the international marketplace.
    Mr. Chairman and members of the committee, if confirmed as 
commissioner, I will serve as a visible and effective advocate 
on behalf of Native American people, and I will be responsible 
for the oversight and administration of a multi-million dollar 
grant program. The authorizing legislation for ANA's grant 
program is the Native American Programs Act. Currently, in 
accordance with this act, ANA distributes $45.8 million 
annually for social and economic development projects. ANA 
carries out this function through four discretionary grant 
programs: the Native American Language Preservation Program, 
the Environmental Regulatory Enhancement Program, the Social, 
Economic, Development Strategies or SEDS Program, and the 
Alaska SEDS program.
    In addition to managing these grant programs, if I am 
confirmed, I will also be the chair for the Department of 
Health and Human Services Intra-departmental Council for Native 
American Affairs. This council has recently been re-established 
by Secretary Thompson and is consistent with the Secretary's 
``One Department'' initiative. It will bring together the 
senior staff of all HHS program offices to improve 
communication and to coordinate Native American programs and 
services. It will also ensure the development and consistent 
administration of policies affecting Native Americans.
    Mr. Chairman and members of the committee, I realize that 
you cannot have healthy families and healthy children without 
the appropriate infrastructure, businesses and jobs. I want to 
assure you that if I am confirmed, I will use creativity and 
innovation to design and implement economic development 
programs. I intend to partner with other Federal agencies and I 
will negotiate private-public partnership arrangements in order 
to leverage the ANA budget. In pursuing these goals, I will 
confer with Congress, other Federal agencies, tribal 
governments, tribal colleges, and Native American 
organizations.
    Mr. Chairman and members of the committee, as you know, the 
challenges facing indigenous communities in the United States 
and its territories are many. But if we are to have healthy 
children and healthy families, it is incumbent upon us to 
provide the resources that are appropriate for each distinct 
community.
    Working together with the support of Congress, the 
Department of Health and Human Services and other Federal 
agencies, we can weave a tapestry of programs that help achieve 
sustainability and allow indigenous communities to become 
active participants and contributors to the global economy.
    Thank you for the opportunity to testify today. I look 
forward to working with you all. I would be pleased to answer 
any questions.
    [Prepared statement of Ms. Stamps appears in appendix.]
    The Chairman. I thank you very much, Ms. Stamps. Without 
objection, the statement of Senator John Warner of Virginia in 
support of your nomination will be made part of the record.
    [Prepared statement of Senator Warner appears in appendix.]
    The Chairman. Because of a vote that is pending at this 
moment, may I submit to you four questions and request a 
written response to be submitted by this weekend.
    On October 1, Tuesday, an executive session of this 
committee will be held. At that time, your nomination will be 
on the agenda.
    Ms. Stamps. Thank you, Mr. Chairman. I appreciate your 
time.
    The Chairman. And with that, the hearing is adjourned.
    [Whereupon, at 10:48 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Hon. Tim Johnson, U.S. Senator from South Dakota

    Chairman Inouye, Vice Chairman Campbell, members of the committee, 
it is an honor and pleasure to introduce to you Phil Hogen, a member of 
the Oglala Sioux Tribe of South Dakota to the Senate Committee on 
Indian Affairs, a committee I am honored to serve. With confidence, I 
urge this committee to confirm Phil Hogen as Chairman of the National 
Indian Gaming Commission.
    With 562 federally recognized Indian tribes, 201 of them operating 
321 facilities that generated $12.7 billion last year, Phil's new job 
will be no small task. But I am convinced that with his wealth of legal 
experiences, including serving as the U.S. attorney for the State of 
South Dakota, and most recently the Assistant Solicitor of Indian 
Affairs, coupled with his problem solving skills, will make him an 
even-handed and effective regulator.
    Tribal gaming is regulated by three entities--tribes, States, and 
the Federal Government. It is important to remember that tribes, as 
they should be, are the primary regulators of Indian gaming. I have no 
doubt that Phil will be respectful of the way his agency will interface 
with the tribes. I urge the National Indian Gaming Commission, under 
Phil's leadership, to continue to operate on a government to government 
relationship and consult with tribes in a meaningful way.
    Again, I urge my colleagues on the Senate Committee on Indian 
Affairs to vote in favor of the confirmation of Phil Hogen and I 
congratulate him on all his successes.
                                 ______
                                 

 Prepared Statement Hon. John R. Thune, U.S. Representative from South 
                                 Dakota

    Mr. Chairman, Mr. Ranking Member, Mr. Hogen, and distinguished 
Senators of the Committee on Indian Affairs, thank you for the 
opportunity to introduce to you a superbly qualified individual from 
South Dakota as the nominee for chairman of the National Indian Gaming 
Commission [NIGC].
    When it came to my attention that the current Administration was 
searching for a new chairman for the NIGC, Phil Hogen's name 
immediately came to mind. Phil's background, knowledge and experiences 
are exactly the qualities needed to fill the chairman's position, and 
that is why I contacted the Administration and gave him my highest 
recommendations.
    Phil grew up in a small town in the Midwest, much like myself. His 
hometown of Kadoka is a short 39-mile drive on Interstate 90 from my 
home of Murdo, and he is a member of the Oglala Sioux Tribe. You learn 
key values growing up in South Dakota. I know Phil to be courteous and 
fair, and to have a strong work ethic. It is easy to see his character 
and his desire to not only get the job done, but also get it done well.
    While I believe it would be easy to confirm Phil based solely on 
his character and values, it is also important to have someone who is 
well-qualified. Phil meets this test. He has an outstanding resume and 
his experience would serve him well as chairman of the NIGC.
    In my opinion, the chairman of the NIGC must have knowledge and 
background in three different areas.
    First, the chairman should have knowledge of Indian gaming. Phil 
certainly meets this requirement. He was a member of the National 
Indian Gaming Commission from 1995 to 1999, which included time as vice 
chairman of the Commission. During his tenure, he visited gaming 
operations throughout the country and developed an understanding of the 
gaming industry. Also, his time at NIGC gives him vast knowledge of the 
industry and how the Commission operates. In fact, many staff who 
worked with Phil still remain at NIGC, which should provide a smooth 
transition.
    However, knowledge of Indian gaming is not the only criteria 
needed. The chairman should also have the ability to work with American 
Indians. As I mentioned before, Phil is a member of the Oglala Sioux 
Tribe. However, his experience goes well beyond his cultural 
background. He served as legal counsel for numerous South Dakota 
tribes, including the tribes' gaming commissions.
    Phil also served as South Dakota's U.S. attorney, Jackson County 
State's Attorney which includes portions of the Pine Ridge Indian 
Reservation, and as Judge on the Rosebud Sioux Tribe Court of Appeals.
    Phil would also bring his vast experience of tribal culture and 
tribal laws. He has experience both regulating Indian gaming, and 
working with the tribes and casinos that are being regulated.
    Finally, the chairman needs experience in Washington DC. The 
chairman must answer to the Administration, Congress, and other 
Government agencies. It is imperative that the new chairman understand 
the political process and work well with all branches of Government.
    Phil meets this challenge as well. Phil was introduced to the 
political world as a staffer here on the Hill, when he worked for then 
Congressman Jim Abdnor. Since his initial experience on the Hill, Phil 
has served in other government positions. From 1992 to 1993, he held 
the position as director of the Office of American Indian Trust, within 
the Department of the Interior, and he is currently performing his 
duties as associate solicitor for Indian Affairs at the Department of 
the Interior.
    It is easy to see that Phil Hogen is extremely well-qualified to be 
chairman of the NIGC. The Administration has done a fine job in 
selecting and nominating such an excellent candidate. Phil is a man of 
integrity, who will be both fair and just, while bringing an 
understanding of tribal issues.
    Thank you again for allowing me to speak here today on behalf of 
Mr. Hogen. It is both an honor and a privilege to support a man of his 
character, and I urge this committee and the full Senate to support his 
nomination by confirming Phil Hogen as the next chairman of the 
National Indian Gaming Commission.
                                 ______
                                 
                      Congress of the United States
                                Washington, DC, September 12, 2002.

Hon. Daniel K. Inouye,
Chairman, Committee on Indian Affairs,
U.S. Senate, Washington, DC.

Hon. Ben Nighthorse Campbell,
Vice Chairman, Committee on Indian Affairs,
U.S. Senate, Washington, DC.

    Dear Chairman Inouye and Vice Chairman Campbell: I am writing in 
regards to the nomination of Philip N. Hogen to serve as the next 
chairman of the National Indian Gaming Commission [NIGC].
    President Bush has announced his intention to nominate Mr. Hogen to 
serve as the next chairman of the NIGC. I respectfully request your 
assistance in the Senate Indian Affairs Committee moving swiftly to 
confirm the nomination of Mr. Hogen for that position once the 
President files the official nomination.
    Mr. Hogen's reputation for honesty and integrity is beyond 
question, and his work experience makes him an outstanding candidate to 
serve as the next chairman of the NIGC. Phil, an enrolled member of the 
Oglala Sioux Tribe, will serve Indian country and our entire Nation 
well in the fair and balanced regulation of Indian gaming. Our Nation's 
Indian tribes, the general public and the Administration will be well-
served once the Senate confirms Mr. Hogen.
    Once again, I would urge your committee and the Senate to promptly 
confirm Philip Hogen as chairman of the National Indian Gaming 
Commission. Thank you for your attention to this matter. Please let me 
know if there is anything I can do to assist in this effort.

            Very truly yours,
                                   John Thune,
                                   Member of Congress.
                                 ______
                                 

 Prepared Statement of Hon. John W. Warner, U.S. Senator from Virginia

    Chairman Inouye, Senator Campbell and my other distinguished 
colleagues on the Senate's Indian Affairs Committee, I am pleased to 
introduce to you Quanah Crossland Stamps, who has been nominated to 
serve as Commissioner of the Administration for Native Americans.
    As you know, the Administration for Native Americans promotes the 
goal of social and economic self-sufficiency for all Native Americans, 
including over 500 federally recognized tribes, 60 tribes that are 
State recognized or seeking Federal recognition, Indian organizations, 
over 200 Alaska villages, Native Hawaiian communities, and populations 
throughout the Pacific basin.
    The Commissioner has an important mission; Ms. Stamps' 
qualifications make her well suited to pursue this mission.
    Ms. Stamps has an impressive resume. I will highlight a few of her 
positions that I think make her uniquely qualified for this position.
    In 1991, Ms. Stamps took a position at the Bureau of Indian Affairs 
[BIA] in the Division of Contracting and Grants Administration. At the 
BIA she worked on procurement policies and administrative processes at 
the Bureau.
    While serving as Assistant Administrator for Native American 
Affairs at the Small Business Administration in 1994-96, she developed 
and implemented a pilot project to establish several rural reservation-
based Tribal Business Information Centers [TBICs]. These centers are 
still open today, aiding small businesses in areas of the country with 
high unemployment.
    Upon completion of graduate studies in International Commerce and 
Public Policy at George Mason University in 2000, Ms. Stamps worked in 
Russia and Macedonia on projects to develop small businesses and 
community development organizations for the marketplace.
    Mr. Chairman, Ms. Stamps is obviously extremely well-qualified to 
serve as our next Commissioner for the Administration for Native 
Americans. I am confident that she will serve in this position with 
distinction.
    Again, I am pleased to introduce to you, Ms. Stamps. I look forward 
to the committee reporting her nomination favorably and for a 
confirmation vote before the full Senate.
                                 ______
                                 

  Prepared Statement of Philip N. Hogen, Nominee for Chairman of the 
                   National Indian Gaming Commission

    Kadoka, South Dakota is the gateway to the Badlands in western 
South Dakota. That's where I was born and raised. My mother and her 
parents were born on the Pine Ridge Indian Reservation, just south of 
Kadoka. They were members of the Oglala Sioux Tribe, as I am. Mom still 
lives in Kadoka. My Father was born just north of Kadoka on the 
homestead of his Norwegian parents. When I was born, my Father was 
serving as a B-24 bombardier in the European theater. When he returned 
from the war, my parents opened a hardware store in Kadoka, and I grew 
up working in that store, and on the ranch that includes my 
grandfather's original homestead. Today my sister and her husband run 
that hardware store in Kadoka, which has been operating for over 56 
years. My brother and his family operate the ranch, parts of which have 
been in Hogen ownership for over 90 years. .
    I learned to pitch pennies on the sidewalk in front of the hardware 
store, when things were slow. My mom and dad taught me to play cribbage 
and rap rummy at an early age, and when I was in grade school I got a 
roulette set for Christmas, and soon committed the odds and the pay-out 
schedule to memory. It didn't take long to learn that it didn't take 
much of an edge for the house to win most of the money. My buddies 
taught me how to play poker, and part of what I earned at the hardware 
store paid the tuition for that education.
    I graduated from high school in Kadoka, and went to Augustana 
College in Sioux Falls, SD, studying economics, and then went right 
into law school at the University of South Dakota. My wife Marty and I 
were married between college and law school. Marty's family is from the 
Black Hills, where her father was a hardrock miner in the Homestake 
Gold Mine, and her mother at one time or another cooked in every 
restaurant in Deadwood, SD. Marty and I were blessed with parents who 
instilled strong values and a work ethic in their children.
    When I got out of law school I joined a good country lawyer in 
Kennebec, SD, just south of the Lower Brule and Crow Creek Sioux 
Reservations, and our practice included the representation of those 
tribes. Thus, I got a quick introduction to tribal government, tribal 
politics, and the overwhelming economic and social challenges facing 
Indian tribes. I witnessed first hand fruitless efforts to bring 
economic development, and the employment, wealth and dignity that comes 
with it, to Indian country.
    Jim Abdnor was from Kennebec, and in 1972 he was elected to 
Congress. Although I'd never been to Washington, DC, he asked me to 
serve as his Administrative Assistant, and I was proud to do so, and I 
served with him through the 93d Congress. We were a green team, and 
just as we were learning the ropes in Congress, the American Indian 
Movement took over Wounded Knee on the Pine Ridge Reservation, in our 
district, and before that 73-day occupation was over, I was on a first-
name basis with just about everybody in the BIA and the Justice 
Department. While on Congressman Abdnor's staff I learned something 
about how Congress and Washington work. A focus of my work there was 
the needs of South Dakota's nine Indian tribes. That Congress enacted 
the Indian Self-Determination and Education Assistance Act. The policy 
of termination was over, and the policy of Indian self-determination 
had begun.
    When Congressman Abdnor was reelected in 1974, the only lawyer in 
Kadoka was elected to a judgeship, so I returned to Kadoka and became 
the States Attorney for a two-county area, which included the Northeast 
portion of the Pine Ridge Indian Reservation. Although this was a 
sparsely populated rural area, it included Interstate 90 and Badlands 
National Park, and as no alcohol was sold on the reservation, but it 
was in the rest of the county, we had more than our share of barroom 
brawls and DWI cases. Thus, it was a very active criminal prosecution 
practice. I became active in the South Dakota States Attorneys 
Association, and eventually served as the organization's president, as 
well as serving on the Board of Directors of the National District 
Attorneys Association.
    In 1981 the Reagan administration was appointing new U.S. 
attorneys, and with newly elected Senator Jim Abdnor's help, I was 
appointed as the U.S. attorney for South Dakota. Unfortunately, the 
thing that characterized the caseload of that office was the 
prosecution of crimes of violence on South Dakota's Indian 
reservations, where there was Federal jurisdiction over major crimes. 
Nearly all of these crimes were substance-abuse related (mostly 
alcohol), and a large share of them were the result of domestic 
disputes. There is no doubt in my mind that the bleak poverty which 
prevailed on those reservations contributed significantly to that 
endemic violence there. During the 10 years I served as South Dakota's 
U.S. attorney I spent a great deal of time on reservations meeting with 
tribal councils and tribal and BIA law enforcement, as well as trying a 
large number of the violent-crime cases, hoping to reverse the cycles 
of violence I saw there.
    As U.S. attorney, I first served on, and then chaired the Indian 
Affairs Subcommittee of the Attorney General's Advisory Committee of 
U.S. Attorneys. To begin with, this was only a handful of U.S. 
attorneys whose districts' had Indian major crimes caseloads like 
mine--North Dakota, Montana, Minnesota, New Mexico, and Arizona. We had 
a challenge attracting much of the Department of Justice's attention or 
resources. Then in the late 1980's, Indian gaming started to spring up 
in a number of places, and U.S. attorneys were discovering Indians they 
didn't know they had. They came to our subcommittee seeking guidance 
about what to ``do'' about Indian gaming. We didn't have a very good 
answer, as the law in this regard was just developing. We watched with 
interest as the Supreme Court decided the Cabazon case in 1987, and 
offered our views as Congress considered and enacted the Indian Gaming 
Regulatory Act [IGRA] in 1988. The rules were then in place for what 
became the only economic engine to bring successful economic 
development to Indian country on a broad basis-Indian gaming.
    While serving as chair of that Indian Affairs Subcommittee I gained 
a national perspective on the development of this industry, the 
implementation of IGRA, and participated in some of the early 
litigation which interpreted aspects of the then new act's application. 
These cases dealt with issues such as the act's card game ``grandfather 
clause'', and differences between Bingo and Keno. The industry was 
beginning its evolution from a few large-stakes bingo games to the 
multi-billion dollar business it is today.
    In 1992 I left the U.S. Attorney's Office and the Department of 
Justice, and accepted Secretary Manuel Lujan's invitation to become the 
first director of the Office of American Indian Trust. The initial task 
there was to get the office open and organized. That effort was just 
under way when the Clinton administration and its team took over that 
task. I then returned to South Dakota to practice law in early 1993.
    From my law office in Rapid City, SD, I focused on the practice of 
Indian law, appearing in most of the tribal courts in the State. Two of 
the major projects I undertook at that time were the representation of 
the Standing Rock Sioux Tribe's Tribal Gaming Commission, and the 
representation of my own tribe--the Oglala Sioux Tribe--as they 
undertook class III gaming on the Pine Ridge Reservation. The Oglala 
project was a comprehensive effort, including the drafting and adoption 
of a Tribal Gaming Ordinance, the negotiation of a tribal-State class 
III compact with the State of South Dakota and securing its approval by 
the Secretary of the Interior, the negotiation and submission of a 
Management Contract to the National Indian Gaming Commission, the 
drafting and adoption of Tribal Gaming Regulations, the selection and 
training of the Tribal Gaming Commission and its staff, as well as the 
construction and opening of the Prairie Winds Casino. This exercise 
familiarized me with all aspects of tribal gaming, and the challenges 
and opportunities presented in such efforts.
    In 1995 I was asked by Secretary of the Interior Bruce Babbitt to 
serve as an associate member of the National Indian Gaming Commission. 
I accepted that offer, and took my oath of office from Secretary 
Babbitt on December 10, 1995.
    I remained on the Commission until June 1999. During the 3\1/2\ 
years I served there three chairmen and one chairwoman, and two vice 
chairmen--including myself--presided over the Commission. Those were 
years of dramatic growth in the Indian gaming industry, and years in 
which the Commission struggled to stay abreast of the dynamic changes 
in the industry and its expansion.
    My service on the Commission gave me a ring-side seat to observe 
the development and dynamics of this industry. One of its most dramatic 
features is its diversity. This diversity, of course, parallels the 
diversity of the Indian nations. While gaming has been a very 
successful tool for tribal economic development, it is worth noting 
that only about half the tribes have been able to, or have chosen to 
utilize it as a means of improving economic conditions on their 
reservations. And while gaming has been fabulously successful for a 
handful of the tribes that have chosen to utilize it, there is no 
direct correlation between the needs of the tribes and their ability to 
develop gaming businesses and employment on their reservations. Tribes' 
cultural traditions, their experience in the business world, the 
developers with whom they may have chosen to partner with in their 
undertakings, the gaming laws of the States in which their homelands 
are located, the competition for gaming dollars in their area, and to a 
very large extent, the market available to them all influence how 
successful particular tribes' efforts in the gaming industry may 
become.
    Rural tribes in sparsely populated areas will likely never solve 
all their economic problems with tribal casinos. As long as they keep 
up with their competition, tribes located near large metropolitan 
markets will likely address most of their economic challenges with 
well-run gaming enterprises. Most of those in this latter category are 
wisely diversifying their economic bases, funding those efforts with 
their current gaming profits. Historically, gaming ``booms'' in the 
United States have been cyclical, and it would not be surprising to see 
the current national interest in gaming wane in years to come.
    But large or small, full-scale casinos or week-end bingo operations 
in Indian country will only be successful if they are run in a squeaky-
clean fashion, and if the perceptions of those operations are that they 
are well and fairly regulated. The first place that all tribal gaming 
operations must adequately fund and manage their gaming efforts is in 
the regulation and oversight of those operations. If they can't afford 
to have a first-class regulatory structure and operation, they can't 
afford to get involved in gaming. Tribal gaming as it exists today, 
having its Genesis in the 1980's, has had the benefit of building on 
the regulatory experiences of the States, particularly that of the 
State of Nevada. While Nevada learned how to regulate gaming the hard 
way, Tribes have had the luxury of starting with the auditing, 
surveillance and other tools which took decades to develop in Nevada. 
Further, technology, including computerized accounting systems, 
presently permit greater scrutiny of gaming operations than was ever 
available in the earlier days of commercial gaming.
    While the structure created by the Indian Gaming Regulatory Act 
still has many critics in the Indian Community, the role of the 
National Indian Gaming Commission, in my view, has significantly 
contributed to the confidence which the public places in Tribal gaming 
operations. While it's true that many States conduct and regulate their 
own State lotteries without any outside oversight, most casino gaming 
and bingo operations in State environments are privately operated, and 
have outside State regulation and oversight. I think that adds to the 
confidence the public places in those operations. Similarly, while the 
first-line of defense, so to speak, with respect to tribal gaming 
operations is the regulation of the Tribes themselves, the fact that 
NIGC is providing oversight and establishes standards which must be met 
and reports which must be filed, provides a needed objectivity which 
justifiably instills public confidence in those operations, and 
contributes to the success and patronage of those operations.
    I feel that there ought to be a good relationship between the 
regulating agency and the community which it regulates, but each should 
guard against there becoming too close a relationship. As my drill 
instructor told my unit when we were in basic training: ``he would be 
our friend, not our buddy;'' I think this described the relationship 
which should exist between NIGC and the gaming tribes. There should be 
a dynamic tension between the regulator and the industry it regulates, 
but both sides should work to make the relationship a positive one. 
Regulators should see that rules are reasonable and easily understood. 
When it comes to enforcement, the regulator should be fair and firm, 
but should use common sense in the application of those rules, and 
avoid hyper-technical interpretations when regulations are applied to 
real-life situations.
    By Federal standards, when I joined NIGC in 1995, it was an agency 
in its infancy. Although it was authorized with the passage of IGRA in 
1988, it actually was not until 1991 that the first Commissioners were 
named, and in the months and years that followed those initial 
appointments, much of work done there was organizational and 
administrative in nature, getting the new agency started up, hiring 
staff, and drafting the agencies first regulations.
    When I arrived at the Commission I spent a considerable amount of 
time studying other Federal regulatory structures, as diverse as the 
Postal Rate Commission and the Federal Trade Commission seeking models 
for an efficient and use-friendly organization. Among what I view to be 
significant accomplishments of NIGC while I had the privilege as 
serving there as an associate commissioner and vice chairman from 1995 
through mid-1999, were the adoption of the agency's first staff manual, 
and the establishment of structured position descriptions and pay-
scales and personnel policies for the Commission's staff. This period 
also saw the adoption of the agency's National Environmental Policy Act 
[NEPA] Manual, the revision of the funding structure which permitted 
the Commission to expand its efforts in an attempt to keep up with the 
growth of the regulated community, the opening of field offices and the 
hiring of additional staff, including a professional auditing team, and 
the adoption of Minimum Internal Control Standards [MICS] for the 
industry.
    The development and implementation of the MICS were a challenging 
undertaking, and they were adopted in the face of some tribal 
objections. The concept, of course, was not original with the 
Commission, and the standards eventually adopted were built largely on 
the model the tribes themselves developed. The changes in the 
regulation of tribal gaming brought on by the MICS were minimal in many 
of the well-run, well-regulated tribal operations. Elsewhere, however, 
I am convinced that they greatly enhanced tribal operations and 
regulation, and in many cases, saved tribal operations dollars they 
didn't know they were losing. I think in the long run, this will be 
seen to have been a benchmark development in the field of tribal gaming 
regulation.
    While on the Commission I spend a considerable amount of my time 
visiting tribal gaming operations, and traveling with the field staff. 
I found this provided me with an understanding and grasp of the nature 
and diversity of Indian gaming which I am not sure could have been 
achieved any other way.
    Many of the talented employees working at NIGC while I served there 
are still with the Agency, as are many of those I helped select as the 
agency grew. I am confident that if I am confirmed and appointed to 
chair the Commission I will be able to work well with the staff at 
NIGC, and that my re-orientation process there can be short.
    As the Indian gaming industry continues to experience significant 
growth, I expect that the Federal agency responsible for its oversight 
must not be permitted to fall behind. I know that the agency must 
continue to find better and more efficient ways to provide that 
oversight, but I also expect that given the extent and nature of task, 
more resources may well be required. I would hope that in this 
connection the industry and the Federal Government would join in 
meeting those needs.
    When I finished my duties with the Commission in 1999, 1 opened my 
law office in Rapid City, SD, and began an ``Of Counsel'' affiliation 
with the national law firm of Holland & Knight LLP, through their 
offices in Washington, DC. The focus of my practice was Indian law, and 
much of that work was in the gaming area. Partners in the Holland & 
Knight firm had developed long-term relations with a number of gaming 
tribes, and when those clients asked the firm to assist with the 
regulation of their gaming operations, I was often called upon. I 
helped several tribal clients update their tribal gaming regulations, 
and from time to time, provided training sessions for tribal gaming 
commissions and their staff. Some of the most exciting and interesting 
work I assisted with in my Of Counsel capacity with Holland & Knight 
was the development of gaming operations for tribes which were just 
entering the gaming field, including several operations in California. 
It was very rewarding to see those tribes find successful economic 
development, when often they had lacked such opportunities for decades.
    My practice included other activities as well, and I again served 
as counsel for my own tribe's gaming commission, the Oglala Sioux 
Tribal Gaming Commission. I also served as general counsel for the 
tribe's institution for higher education, Oglala Lakota College.
    Last Fall, Interior Secretary Gale Norton and Solicitor Bill Myers 
asked if I would join them as the Associate Solicitor for Indian 
Affairs, and I accepted that invitation, and began my present duties on 
October 25, 2001. Working with Assistant Secretary of Indian Affairs 
Neal McCaleb and the Bureau of Indian Affairs has been a most 
interesting and rewarding opportunity. The large and growing legal 
staff in the Division of Indian Affairs is a very busy and dedicated 
group, and it handles a very broad and diverse number of issues 
important to the Department of the Interior and individual Indians and 
Indian Tribes. Litigation focusing on the Department's fulfillment of 
its trust responsibility was one of the most significant areas our 
Division has been dealing with. I also had the privilege of serving on 
the Tribal Trust Reform Task Force which has been seeking better ways 
in which the Department can meet its trust obligations to Tribes and 
Indians. As the Associate Solicitor for Indian Affairs I provided 
counsel to the Secretary and the Assistant Secretary for Indian Affairs 
as Tribal-State Class III gaming compacts were reviewed, approved and 
rejected, and advised the Department in connection with its taking of 
lands into trust for Tribes for gaming and non-gaming purposes. I feel 
that this valuable experience will serve me well if I become the 
Chairman of the Commission, and will enhance the coordination necessary 
between the Department, the Bureau of Indian Affairs, and NIGC.
    I think that the work I have had the privilege to do will provide a 
good background from which to lead the National Indian Gaming 
Commission. I understand how important Indian gaming is to the many 
tribes now engaged in it, and I understand that thorough, fair 
regulation of that industry is critical to its continued success. I 
think relationships I have developed over the years within the Tribal 
community, within the gaining industry, and in State governments and in 
the Federal Government can serve me well if called upon to keep the 
NIGC's oversight of tribal gaming strong, fair and efficient.
    My wife Marty continues to teach Spanish in South Dakota's largest 
high school in Rapid City, and we have a lovely log home in the Black 
Hills. My daughter Vanya practices Indian law in Minneapolis, and my 
son Herb lives and works in Washington State. I have their support in 
connection with the challenge of this new position, and I am confident 
if this Committee and the Senate support my confirmation, and President 
Bush appoints me as the Chairman of the National Indian Gaming 
Commission, I can assure that the Commission fulfills its mission, and 
keeps the mandates of the Indian Gaming Regulatory Act.
                                 ______
                                 

      Prepared Statement of Quanah Crossland Stamps, Nominee for 
Commissioner, Administration for Native Americans, Department of Health 
                           and Human Services

    Chairman Inouye, Vice Chairman Campbell and members of the 
committee. My name is Quanah Crossland Stamps and I am an enrolled 
member of the Cherokee Nation in Tahlequah, OK. It is an honor to 
appear before you as President George W. Bush's nominee to be the 
Commissioner of the Administration for Native Americans [ANA]. Joining 
me today are members of my family, my husband of 17 years, Col. Robert 
Stamps, and my daughter Sequoyah. I would also like to acknowledge my 
mother Nora Carrington and my father John Crossland who could not be 
here with me today, but are watching the live broadcast on the 
Internet.
    Mr. Chairman and members of the committee, as you know, ANA, is 
located in the Department of Health and Human Services within the 
Administration for Children and Families. If I am confirmed for the 
statutory position of Commissioner, I will have the privilege to work 
with Secretary Tommy Thompson, and Assistant Secretary for Children and 
Families, Dr. Wade Horn. We will work together on social and economic 
development issues affecting American Indians, Alaskan Natives, Native 
Hawaiians, Samoans, and other indigenous populations throughout the 
Pacific Basin.
    If confirmed, I will bring to the position a wide range of 
experiences that have prepared me for this important job. In 1990, I 
received my bachelor's degree from George Mason University and in 1991 
I accepted a position with the Bureau of Indian Affairs [BIA] in the 
Division of Contracting and Grants Administration. During my tenure 
with the BIA, I worked on procurement policies issues governed by the 
Buy Indian and the Indian Self-Determination Acts. I also worked on the 
administrative processes that regulated contract and grant awards to 
Native American owned Business and tribal organizations.
    I reviewed joint venture agreements and teaming arrangements 
related to the award and performance of BIA contracts. I drafted and 
provided written and oral comments on pending legislation, and I 
negotiated the regulations to implement the Indian Incentive and the 
Mentor-Protege programs.
    In October 1994, I accepted the position of Assistant Administrator 
for Native American Affairs with the U.S. Small Business Administration 
[SBA]. As the Assistant Administrator, I was the senior policy adviser 
to the Administrator on business and economic development activities 
and the delivery of SBA programs that served Alaska, Hawaii and 
American Indian people in the lower 48 States. While at the SBA, I 
focused on opportunities to increase participation by Native American 
businesses and entrepreneurs in SBA's financial, business development, 
educational and technical assistance programs. As a result of my work, 
SBA realized a significant increase in the number of Native American 
businesses participating in these programs.
    In fiscal years 1995 and 1996, I developed and implemented a 9-
State pilot project to establish 21 rural reservation-based Tribal 
Business Information Centers [TBIC]. This was a joint Federal 
initiative with the BIA. It involved the negotiation of public/private 
partnerships in an effort to ensure these communities had access to 
technical, educational and financial assistance services necessary to 
establish small businesses and create employment opportunities. Today, 
due to the hard work of dedicated people and the support of 
communities, tribes, tribal colleges and several Federal agencies, 
there are 18 TBIC's operating which have helped to establish and expand 
hundreds of small businesses in areas of the country with chronic, high 
unemployment.
    From 1998 to 2000, I completed my graduate studies in International 
Commerce and Public Policy at George Mason University. My studies 
focused on transitional economies, U.S. Trade Agreements, the process 
of country risk analysis, and international business transactions. In 
1998, I also established a consulting practice to provide business 
technical assistance to foreign companies interested in accessing the 
U.S. marketplace. I accepted contracts to research the business 
strategies of U.S. aviation and aerospace companies, to provide 
business technical assistance to tribally owned firms, and to review 
community development proposals on behalf of the U.S. Department of the 
Treasury, Community Development Financial Institutions.
    I have worked in the Russian Far East and the Republic of Macedonia 
on projects to develop small businesses and community development 
organizations. Each of these projects involved countries whose 
economies were in severe transition and had very little private sector 
development or employment opportunities. I worked with organizations to 
build their business capacities, market their communities, and sell 
their products in the international marketplace.
    Mr. Chairman, and members of the Committee, if confirmed as 
Commissioner, I will serve as an effective and visible advocate on 
behalf of Native American people. I will be responsible for the 
oversight and administration of millions of dollars. The authorizing 
legislation for ANA is the Native American Programs Act [NAPA] of 1974. 
Currently, in accordance with this act, ANA distributes $45.8 million 
annually for socio-economic development projects. ANA carries out this 
function through four discretionary grant programs: The Native Language 
Preservation Program; the Environmental Regulatory Enhancement Program; 
the Social, Economic, Developmental Strategies [SEDS] program; and the 
Alaska SEDS program.
    In addition to these grant programs, ANA currently has six Training 
and Technical Assistance Contracts to assist Native Americans with the 
formulation of their ANA project plans and in the comprehensive 
development of ANA proposals.
    In addition to managing these grant programs, if I am confirmed, I 
will also be the chair for the Department of Health and Human Services 
Intra-departmental Council for Native American Affairs. This council, 
which has recently been revitalized by Secretary Thompson and is 
consistent with the Secretary's ``One Department'' initiative, will 
bring together the senior staff of all HHS program offices to improve 
communication and to coordinate Native American programs and services. 
It will also ensure the development and consistent administration of 
policies affecting Native Americans.
    Mr. Chairman and members of the committee, I realize that you 
cannot have healthy families and healthy communities without the 
appropriate infrastructure, businesses and jobs. I want to assure you 
that if I am confirmed, I will use creativity and innovation to design 
and implement social and economic development programs. I intend to 
partner with other Federal agencies and I will negotiate private/public 
partnerships in order to leverage the ANA budget. In pursuing these 
goals, I will confer with Congress, other Federal agencies, tribal 
governments, tribal colleges, and Native American organizations.
    Mr. Chairman and members of the committee, as you know, the 
challenges facing indigenous communities in the United States and its 
territories are many. But, if we are to have healthy children and 
healthy families it is incumbent upon us to provide the resources that 
are appropriate for each distinct community.
    Working together with the support of the Congress, the Department 
of Health and Human Services and other Federal agencies we can weave a 
tapestry of programs that help achieve sustainability and allow 
indigenous communities to become active participants and contributors 
to the global economy.
    Thank you for the opportunity to testify before you today. I look 
forward to working with all of you. I would be pleased to answer any 
questions you might have.
                                 ______
                                 
                 Northern Arapaho Business Council,
                             Fort Washakie, WY, September 24, 2002.

Hon. Daniel K. Inouye,
Chairman, Committee on Indian Affairs,
U.S. Senate, Washington, DC.

    Dear Chairman Inouye: Recently, President Bush nominated Mr. 
Phillip Hogen as chairman of the National Indian Gaming Commission 
[NIGC].
    The Northern Arapaho Business Council [NABC], on behalf of the 
Northern Arapaho Indian Tribe of the Wind River Reservation of Wyoming, 
strongly supports and recommends that the Senate Committee on Indian 
Affairs approve Mr. Hogen's nomination to the whole Senate.
    Mr. Hogen's long service to Indian people, both in and out of 
Government, more than qualifies him to be confirmed to this vitally 
important job.
    Phil Hogen has performed admirably in many important Government 
jobs, including U.S. attorney for South Dakota, commissioner of the 
National Indian Gaming Commission, and currently as associate solicitor 
for Indian Affairs within the U.S. Department of the Interior.
    In addition to his high level job performances, Mr. Hogen is a man 
of integrity, honesty, and fairness.
    Over the years, Indian country has observed Mr. Hogen deal with 
complex and difficult issues. Each and every time, the Northern Arapaho 
have observed him, he has demonstrated a keen intellect and a fair and 
balanced hand.
    Recently, Mr. Hogen has served as legal adviser to the Department 
of the Interior on the Joint DOI/Tribal Task Force on Trust Reform. 
Although I have not always agreed with his public advice to the 
Department, I always believed that his conclusions were well thought 
out and only given after careful review of the law and the facts. 
During some of the deliberations, his conclusions were dictated by the 
Department of Justice and these positions should not be held against 
him as you consider his confirmation as chairman of the NIGC.
    The Northern Arapaho strongly recommends a quick and unanimous 
confirmation of Phillip Hogen to the position of chairman of the 
National Indian Gaming Commission.
    Your careful consideration in this matter is greatly appreciated.

            Sincerely,
                                   Anthony Addison, Sr., Chairman.
                                 ______
                                 
                 Northern Arapaho Business Council,
                             Fort Washakie, WY, September 24, 2002.

Hon. Daniel K. Inouye,
Chairman, Committee on Indian Affairs,
U.S. Senate, Washington, DC.

    Dear Chairman Inouye: On behalf of the nearly 8,000 enrolled 
members of the Northern Arapaho Tribe, we are writing in support of the 
Presidential nominee for Commissioner of the Administration for Native 
Americans, Administration for Children and Families, U.S. Department of 
Health and Human Services.
    The President has nominated Quanah Crossland Stamps, an enrolled 
member of the Cherokee Nation with extensive experience working 
nationally in Indian country on economic development issues.
    Quanah Stamps established the Tribal Business Information Centers 
across the United States. She has extensive experience in business 
development on American Indian reservations. For the last several years 
she has worked internationally in developing countries on sustainable 
economic development projects.
    She is a member of the Cherokee Nation and will serve the cultural, 
community, governance and economic needs of indigenous people across 
this country. We fully support her nomination and ask that she receive 
a timely confirmation hearing so she can get to work.

            Yours truly,
                                   Anthony A. Addison, Chairman.
                                 ______
                                 
                         Standing Rock Sioux Tribe,
                                 Fort Yates, ND, September 4, 2002.

Hon. Daniel K. Inouye,
Chairman, Committee on Indian Affairs,
U.S. Senate, Washington, DC.

    Dear Chairman Inouye: On behalf of the 15,000 enrolled members of 
the Standing Rock Sioux Tribe, we are writing in support of the 
Presidential nominee for commissioner of the Administration for Native 
Americans, Administration for Children and Families, U.S. Department of 
Health and Human Services. The President has nominated Quanah Crossland 
Stamps, an enrolled member of the Cherokee Nation with extensive 
experience working nationally in Indian country on economic development 
issues, Quanah Stamps established the Tribal Business Information 
Centers program in South Dakota, North Dakota, North Carolina, Arizona, 
California, Minnesota, and Montana when she held the position of 
Assistant Administrator at the U.S. Small Business Administration.
    She understands the challenges facing American Indian reservations 
and has complementary professional experience to help us resolve some 
of the major obstacles to increasing wealth for Native Americans. We 
urge your support of her nomination and ask for a speedy process so 
Quanah can get to work as commissioner for the Administration of Native 
Americans.

            Sincerely,
                                   Charles W. Murphy, Chairman.

                               <greek-d>

      

</pre></body></html>
